Brian Burgess
+1 202 346 4215
BBurgess@goodwinlaw.com

Goodwin Procter LLP
1900 N Street, NW
Washington, DC 20036
goodwinlaw.com
+1 202 346 4000

October 20, 2020

ELECTRONIC FILING ONLY
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street
Washington, DC 20543
Re:

MarketGraphics Research Group, Inc. v. David Peter Berge, No. 20-457

Dear Mr. Harris:
I represent respondent David Peter Berge in the above-captioned case. The petition for a
writ of certiorari was placed on the docket on October 8, 2020, and the response is currently
due on November 9, 2020. Pursuant to Rule 30.4, respondent requests that the Court extend
the time within which to file a response to the petition by 30 days, to and including
December 9, 2020.
An extension is necessary to ensure that I will have adequate time to prepare the response.
I was only recently retained in this matter and require the additional time to familiarize
myself with the record and legal questions presented, while keeping other professional
commitments.
Counsel for petitioner does not oppose the requested extension.
Sincerely,
/s/ Brian Burgess

Brian Burgess

cc:

Neal Kumar Katyal (via e-mail by agreement of the parties)

